No.

INTHE
SUPREME COURT OF THE UNITED STATES

JOHN A CLIFFORD,

Petitioner,
vs.
PEOPLE OF THE STATE OF NEW YORK,

Respondent.

On Petition for Writ of Certiorari to the
Supreme Court State of New York,
Appellate Term -Second Department
Ninth & Tenth Judicial Districts
~~~~ ~ ~~~~

PETITION FOR WRIT OF CERTIORARI
~~~~ ~ ~~~~

John A. Clifford

Counsel of Record
370 W. Broadway, Ste. 5W Long
Beach, NY 11561
(516) 477-4684
E-mail: cliffordjohna@.com

Attorney, prose, for Petitioner
July 21, 2021

QUESTIONS PRESNTED
Petitioner, a former U.S. Army military police sergeant; retired NYC police
sergeant with 350 career arrests and a member of the bar of this Court since May
31 , 1988 effected a citizen's arrest (videotaped) of an off-duty police sergeant who

had damaged (felony) a window of petitioner's car. The sergeant in turn arrested
petitioner. Petitioner was charged with menacing, i.e., displaying a sheathed
hatchet; criminal possession of a weapon (the sheathed hatchet) and endangering
the sergeant's daughter. Petitioner unsuccessfully moved to dismiss on 211d
Amendment and other grounds. At trial petitioner also unsuccessfully moved to
dismiss on 2nd Amendment and other grounds. He was denied justification and 2°d
Amendment jury charges and prohibited from cross-examining the sergeant about a
prior bad act because the se1·geant had been gi·anted immunity in a previous federal
civil case (exception gi·anted on the record). Petitioner was convicted of the
menacing charge and acquitted of the weapons possession and endangering charges,
a clearly repugnant verdict, but the judge dismissed the jury anyway. ignoring his
statutory duty to send it back. Petit.ioner appealed to no avail. The appellate court
held his issues were not preserved or were ·without merit even though petitioner
made a written motion during trial and was gi·anted the exception.
The questions presented are: (1) Does the 2nd Amendment apply here; (2)
Does the granting of immunity in a federal civil case prohibit cross examination of a
complaining witness about the admitted underlying bad act; (3) was deliberately
failing to send the jury back to deliberate a violation of due process: (4) Was the
appellate court's failure to rule a violation of due process?

LIST OF ALL PARTIES
All the parties appear in the caption of the case on the cover page.

RULE 29.6 STATEMENT
No co11)orations are involved in this proceeding.

TABLE OF CONTENTS
QUESTIONS PRESENTED . ... . ... . ... . . . ... . .. . ... .. . . ... ... . i
PARTIES TO THE PROCEEEDINGS . .. . .. . .. . ... . ... . ... . . .. ... ii
CORPORATE DISCLOS URE .. ... . .. . .. .... ....... . .. . ... .. . .. . ii
TABLE OF CONTENTS .... ..... ...... . . . ........... . ... .. . .. . ii
INDEX OF APPENDICES ............ ........ .. .. . . .. . .. .. ..... iii
TABLE OF AUTHORITIES CITED ... . ... . .... . .. . . . . . . .. .. .. . .. iv
OPINIONS BELOW ........ .. .. .. . . .. . . . ... . . . . ... . . . . . ...... . 1
BASIS OF JURISDICTION ......... ... .. ... . . ... . ..... . .. .. ... . 1
CONSTITUTIONAL PROVISIONS AND STATUTES . . .... ... . . ... .. 2
STATEMENT OF CASE . .. . .. . . . .. .... . .. . . .. . ....... . . .. .. . .. . 5
REASONS FOR GRANTING THE PETITION UNDER RULE lO(C)

I.

IT'S OVER A DECADE SINCE HELLER AND MCDONALD AND
SIX YEARS SINCE CAETANO YET THE STATES HAVE NOT
CHANGED THEIR LAWS AND THE STATE COURT IN
PETITIONER'S CASE EVEN HELD THE RIGHT TO BEAR ARMS
APPLYS ONLY TO FIRE ARMS. THIS PETITION SHOULD BE
GRANTED TO MAKE IT CLEAR THAT DESPITE MENACING
STATUTES, CITIZENS HAVE A RIGHT TO KEEP AND CARRY
BEARABLE ARMS IN CASE OF CONFRONTATION A..'ND THIS
RIGHT EXISTS OUTSIDE THE HOME.
5

II.

THE PETITION SHOULD BE GRANTED BECAUSE A CRIMINAL
DEFENDANT HAS A CONSTITUTIONAL RIGHT TO CONFRONT
ii

A COMPLAINING WITNESS ABOUT HIS PRIOR BAD ACTS
EVEN IF THE WITNESS WAS GRANTED IMMUNITY IN A
PRIOR FEDERAL CIVIL CASE.

8

III.

THE PETITION SHOULD BE GRANTED BECAUSE WHEN A
TRIAL JUDGE DELIBERATELY IGNORES HIS STATUTORY
DUTY TO SEND A JURY BACK TO FURTHER DELIBERATE ON
A REPUGNANT VERDICT- HE HAS DENIED THE DEFENDANT
HIS CONSTITUTIONAL RIGHT TO DUE PROCESS
11

IV.

THE PETITION SHOULD BE GRANTED BECAUSE AN
APPELLATE COURT VIOLATES A DEFENDANT'S DUE
PROCESS RIGHTS WHEN IT HOLDS THAT AN APPELLANT'S
ISSUES ARE UNPRESERVED EVEN THOUGH WRITTEN
MOTIONS WERE MADE BEFORE AND DURING TRIAL AND AN
EXCEPTION WAS GRANTED AT TRIAL CONCERNING THE
CROSS-EXA.i.\1.INATION OF THE COMPLAINING WITNESS
ABOUT HIS PRIOR BAD ACT.
17

CONCLUSION . . . . . . .... . . . . . ... .. ..... . ..... . . . . . . . . . ... .. . . . 19
INDEX OF APPENDICES
APPENDIX A DECISION AND ORDER OF THE APPELLATE
TERM SECOND DEPARTMENT grH & lQTH .nJDICIAL
DISTRICTS OCTOBER 29, 2020 ... . .. . . . . .. . ... ... . .. ..... . . .... ... .. .. . ii
APPENDIX B. LETTER FROM THE NYS COURT OF APPEALS
DENYING REVIEW FEBRUARY 23, 2021 .. ....... .... .. . .... . . .... . .... . ii
APPENDIX C. DECISION OF LONG BEACH CITY COURT
JUDGE COREY E KLEIN MAY 24, 2017 .. . .... . . . ... . .... . ......... . .. . . ii
APPENDIX D. DECISION OF ACTING SUPREME COURT JUSTICE
HELENE F . GUGERTY NOVEMBER 13, 2017 . . . . . . . .. . ... .. . . .... .. .. ... ii
APPENDIX E . DECISION OF NASSAU COUNTY DISTRICT CO URT
JUDGE TRICIA M FERRELL JUNE 15, 2018 ... . .. . . . .... . . . . . ... ........ . ii
APPENDIX F . DECISION OF NASSAU COUNTY DISTRICT COURT
J UDGE COLIN F. O'DONNELL SEPTEMBER 19, 2018 . . . ... .. ... .. .. . ... .. ii
APPENDIX G. ORDER ON APPLICATION TO ENLARGE TIME
FOR PROSECUTION TO RESPOND AUGUST 21, 2019 .. .. ... . . .. . . ... . .... ii
iii

TABLE OF AUTHORITIES
Caetano v Massachusetts, 577 U. S. _ (2016)
136 S. Ct. 1027, 201 194 L. Ed. 2d 99 .. . . . . .... . ... . . . . . ...... .. . ........ 6, 7
District of Columbi,a v Heller, 554 U. S. 570, 582 , 1
28 S. Ct. 2783, 171L.Ed.2d637 (2008) ... .. . ..... . ............ . ..... . ... 6, 7
McDonald v Chicago, 561 U.S. 742, 750,
130 S. Ct. 3020, 177 L. Ed. 2d 894 (2010) ........................... . ..... 6, 7
People v Spry, 50 Misc 3d 1208[A], 28 NYS3d 650,
2016 NY Slip Op 50013[U] [Crim Ct. NY County (2016) ....... .. .. . ..... . .. 6, 7
S chroeder v. The County of Nassau, 158 F . Supp . 3d 123
[E.D.N.Y. Case No. 2:12-cv-03657 Notice of Appeal
filed 0: 16-cv-00448 (Second Circuit)] ....... . .... .. . ....................... 8

iv

OPINIONS BELOW
The opinion of the New York Supreme Court, Appellate Term, Second
Department,

9rh

and

1Qth

Judicial Districts was rendered as NY Slip Op 51277(U)

and decided on October 29, 2020. It appears as Appendix A.
The Order denying leave from the State of New York Court of Appeals dated
February 23, 2021 apperu.·s as Appendix B
The unpublished decisions of the Long Beach New York City Court, Supreme
Court State of New York County of Nassau and Nassau County District Court
appear as Appendices C through G respectively.

JURISDICTION
The date of the Order denying leave to appeal to the State of New York Court
of Appeals is dated February 23, 2021. This petition is filed on July 22, 2021 which
is 149 days after that date.
Rule 30.1allows90 days to file. This Court's November 13, 2020 Covid-19
Order extended the filing period to 150 days giving petitioner until July 23, 2021 to
file and also allowed him to file the petition on 8 Y2 x 11-inch paper.
Jurisdiction is based on 28 li.S . Code § 1257 - State courts; certiorari
(a) Final judgments or decrees rendered by the highest court of a State in
which a decision could be had, may be reviewed by the Supreme Court by writ of
certiorari where the validity of a treaty or statute of the United States is drawn in
question or where the validity of a statute of any State is drawn in question on the
ground of its being repugnant to the Constitution, ti·eaties, or laws of the United

1

States, or where any title, right, privilege, or immunity is specially set up or
claimed unde1· the Constitution or the ti·eaties or statutes of. or any commission
held or authority exercised unde1', the United States.
CONSTITUTIONAL PROVISIONS AND STATUTES INVOLVED
The Second Amendment to the United States Constitution provides:

A well regulated Militia, being necessai·y to the security of a free State,
the right of the people to keep and bear Arms, shall not be infringed.
The Sixth Amendment to the United State Constitution provides:

In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial, by an impartial jury of the State and district
wherein the crime shall have been committed, which district shall have
been previously ascertained by law, and to be informed of the nature
and cause of the accusation; to be confronted with the witnesses
against him; to have compulsory process for obtaining witnesses in his
favor, and to have the Assistance of Counsel for his defense.
The Fourteenth Amendment to the United States Constitution provides:

Section 1.
All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the state
wherein they reside. No state shall make 01· enforce any law which
shall abridge the privileges or immunities of citizens of the United
States; nor shall any state deprive any person of life, liberty, or
p1·operty, without due process oflaw; nor deny to any person within its
jurisdiction the equal protection of the laws.
STATUTES
Criminal Procedure Law§ 330.30(1)

Motion to set aside verdict; grounds for
At any time after rendition of a verdict of guilty and before sentence, the court
may, upon motion of the defendant, set aside 01· modify the verdict or any part
thereof upon the following grounds:

2

1. Any ground appearing in the record which, if raised upon an appeal from a

prospective judgment of conviction, would require a reversal or modification of the
judgment as a matter of law by an appellate court.

New York Penal Law§ 35.15 Justification; use of physical force in defense
ofa person.
1. A person may, subject to the provisions of subdivision two, use
physical force upon another person when and to the extent he 01· she
reasonably believes such to be necessary to defend himself, herself or a
third person from what he or she reasonably believes to be the use or
imminent use of unlawful physical force by such other person, unless:
(a) The latter's conduct was provoked by the actor with intent to
cause physical injury to another person; or
(b) The actor was the initial aggressor; except that in such case the
use of physical force is nevertheless justifiable if the actor has
withdrawn from the encounter and effectively communicated such
withdi·awal to such other person but the latter persists in continuing
the incident by the use or threatened imminent use of unlawful physical
force; or
(c) The physical force involved is the product of a combat by
agi·eement not specifically authorized by law.
2. A person may not use deadly physical force upon another person
under circumstances specified in subdivision one unless:
(a) The actor reasonably believes that such other person is using or
about to use deadly physical force. Even in such case, however, the
actor may not use deadly physical force if he or she knows that with
complete personal safety, to oneself and others he or she may avoid the
necessity of so doing by retreating; except that the actor is under no
duty to retreat if he or she is:
(i) in his or her dwelling and not the initial aggi·essor; or
(ii) a police officer or peace officer or a person assisting a police
officer or a peace officer at the latter' s direction, acting pursuant to
section 35.30; or
(b) He or she reasonably believes that such other person is committing
or attempting to commit a kidnapping, forcible rape, forcible criminal
sexual act or robbery; or
(c) He or she reasonably believes that such other person is committing
or attempting to commit a burglary, and the circumstances are such that
the use of deadly physical fo1·ce is authorized by subdivision three of
section 35.20.
New York Penal Law § 35.25 Justification; use of physical force to prevent or
terminate a larceny or criminal mischief.
A person may use physical force , other than deadly physical force,
3

upon another person when and to the extent that he or she reasonably
believes such to be necessary to prevent or terminate what he or she
reasonably believes to be the commission or attempted commission by such
other person of larceny or of criminal mischief with respect to property
other than premises.
New York Penal Law§ 35.30 Justification; use of physical force in making
an arrest or in preventing an escape.
4. A private person acting on his

her own account may use physical
force , other than deadly physical force , upon another person when and to
the extent that he or she reasonably believes such to be necessary to
effect an arrest or to prevent the escape from custody of a person whom
he or she reasonably believes to have committed an offense and who in
fact has committed such offense; and may use deadly physical force for
such purpose when he or she reasonably believes such to be necessary to:
(a) Defend himself, herself or a third person from what he or she
reasonably believes to be the use or imminent use of deadly physical
force; or
(b) Effect the arrest of a person who has committed murder,
manslaughter in the first degree, robbery, forcible rape 01· forcible
criminal sexual act and who is in immediate flight therefrom.
01·

New York Penal Law§ 120.14: Menacing in the second degree:
.-\ per ::-un

h ~uilty

of nH·naci n:.! 111 t hP ."'Pl'ond dt'gr<'t' \\.liPtl:

I. !Tr· or she· i11 1r•11unnnll> pl:icc·:- nr ~1 f t(•m ph to pl:-1ce <tn<ith c'l· )Jf'r"on
in n•;1-:unable f1:· ~1r uf ph.' sir;il in jury. H riuu." pli :-,·sic;·d in.1ur>· or dc·nth
b>· clJ:--pl:t)·ing <l clc·;1dly '' c•ap on . cla11~C:l'(1l\:-o rn:--1 runH"llt or'' Im.I appc•;H=-lu hl' ;1 pi't!ll. n• \ .dn 1·. ri.f11• . -;Jiut~l111. n1r1dunc' :.:u11 or <tl h <·1 f'in·arn1: or
1

New York Penal Law§ 145.05 Criminal mischief in the third degree
Penal
A person is guilty of criminal mischief in the third degree when, with intent
to damage property of another person, and having no right to do so nor any
reasonable ground to believe that he 01· she has such right, he or she:
2. damages property of another person in an amount exceedin g two hundred fifty
dollars.
Criminal mischief in the third degTee is a class E felony .
New York Criminal Procedure Law (CPL)§ 310.50 provides:

Section 310.50 - Verdict; form; reconsideration of defective verdict

4

2. If the jury renders a verdict which in form is not in accordance with the court's
instructions or which is otherwise legally defective, the court must explain the
defect or error and must direct the jury to reconsider such verdict, to resume its
deliberation for such purpose, and to render a proper verdict. If the jury persists in
rendering a defective or improper verdict, the court may in its discretion either
order that the verdict in its entirety as to any defendant be recorded as an acquittal,
or dischaTge the jury and autho1ize the people to retry the indictment or a specified
count or counts thereof as to such defendant; provided that if it is clear that the jury
intended to find a defendant not guilty upon any particular count, the court must
order that the verdict be recorded as an acquittal of such defendant upon such
count.
STATEMENT OF THE CASE

On Question (1) Does the 211 d Amendment apply here;
On March 29, 2016 petitioner, a 68-year-old, forme1· Viet Nam era militai·y
police sergeant, retired NYCPD police se1·geant and attorney with no prior
convictions, had just obtained cash from an ATM and was headed to his
chiropractor's office in his car when a woman pulled out of a driveway in front of
him causing petitioner to speed up to avoid a collision and go a1·ound her. In
doing so he came close to hitting an off-duty police sergeant who was illegally
crossing the street with his young daughter. This caused the sergeant to shove
his daughter forward and then take a baseball swing with a bag weighing up to
two pounds at petitioner's windshield. The bag missed the ·windshield but hit
petitioner's side window causing felony damage, i.e., damage in excess of
$250.00 (PL 145.05 felony criminal mischief).
Defendant traveled about 50 feet down the road and stopped his
vehicle, a 2005 Chevrolet Suburban. Petitioner paused for a time to take a look
5

back to view the damage. Seeing damage, he grabbed a sheathed hatchet from the
assortment of tools he had on the floor of his front passenger seat and exited the
vehicle taking seven steps to catch up to the sergeant. When they encountered the
sergeant was still holding the bag and his daughter. Petitioner held up the stillsheathed hatchet for a split second and told the sergeant: "If you want a piece of me,
come get it." The then 38-year-old sergeant put down the bag and his daughter and
followed petitioner back to the his vehicle to observe the damage.
But instead of offering to compensate petitioner the sergeant arrested him for
menacing, weapons possession and endange1ing his daughter even though he
himself had not only been armed with the weighted bag but was carrying his offduty weapon. The incident was caught on video and it shows the sergeant reaching
side to side for the off-duty and then going to the front of petitioner's car and lining
up petitioner for a shot until the sergeant's wife comes into the line of fire.
Since petitioner's actions were equally compatible with a lawful citizen's
arrest, he moved for dismissal under Heller, McDonald, Caetano , and a New York
case People v Spry, 50 Misc 3d 1208[A], 28 NYS3d 650, 2016 NY Slip Op
50013[U] [Crim Ct. NY County (2016) (March 30, 2018 aff. of defendant-appellant
at 8). The motion was denied.
Petitioner again argued before trial that he had a statutory right to
prevent or te1·minate the sergeant's criminal mischief under PL 35 .25; a right to
use physical force in making the arrest, if necessary, under PL 35.30; and, a
right to use deadly physical force in the event the sergeant tried to use deadly
6

physical force against him, i.e. , the two-pound weighted bag, PL 35.15).
Petitioner's argument was and remains that he had a Constitutional
right to arm himself with the sheathed hatch in the event of further
confrontation with the sergeant under, Heller, McDonald and Caetano.
The same 2°<l Amendment argument was made at trial but the judge held
that the 211 c1 Amendment only applied to fire arms.
The transcript reads:
7 Those constitute the charges to the jury. Are
8 there any objections?
9 MR. LAI: No, your Honor.
lOTHE COURT: Mr. Clifford, any objections?
11 MR. CLIFFORD: Yes, your Honor.
12 THE COURT: Go ahead.
13 MR. CLIFFORD: Just a request for the chru.'ge
14 that was handed down in a case of District of Columbia
15 verses Heller ·I brought it with me · where the Supreme
16 Court specifically says that a citizen is entitled to
17 bear arms, to carry arms, to bear arms in the event of a
18 confrontation. l think that's been recognized in Nassau
19 County. Supreme Court case has decided and I think
20 under these cfrcumstances, in the light most favorable
21 to me, it could be ··
22 THE COURT: What, specifically, are you asking
23 me to instruct the jury?
24 MR. CLIFFORD: That every citizen has the
25 right to beru.' arms in the event of confrontation.
KS

Proceedings
323
1 THE COURT: Unfortunately, that is not the law
2 in the State of New York. In a number of states in the
3 country it is the law, but bearing arms is generally
4 regru.'ded as firearms. In New York, specifically,
5 whether for good or for bad, you must have a license to
7

6 cany a loaded pistol around with you. There are even
7 some circumstances where canying a rifle or a shotgun
8 in public, depending on the cu·cumstances, is
9 prohibited. I won't comment on whether I agree with it
10 01· not, but I can't instruct the jury that a person has
11 a legal right to bear arms just like that because it
12 would be incorrect.
On Question (2) Does the granting of immunity in a federal civil
case prohibit cross examination of a complaining witness about the
admitted underlying bad act:

The 61h Amendment gives defendants the right to cross-examine witnesses.
Part of the art of cross examination is to impeach the credibility of the witness by
eliciting their commission of one or more prior bad acts.
P1ior to t1ial the People disclosed that when the sergeant was a patrolman
he was involved in an on· duty a1'l·est of a young man named Schroeder for DWI
who had fled where the sergeant had topped him. The sergeant ran after Schroeder
and as he was catching up to him, Schroeder turned his head to see where the
sergeant was. As he was doing so. the sergeant struck him on the side of the face
with his nightstick, causing Schroeder to lose sight in one eye.
Schroeder sued in federal court for damages. Schroeder u. The County of
Nassau., 158 F . Supp. 3d 123 [E.D.N.Y. Case No. 2: 12-cv-03657 Notice of Appeal

filed 0: 16-cv-00448 (Second Circuit))
.The sergeant's motion for dismissal based on immunity was granted. But, in
doing so, the judge indicated that in the sergeant's pre-trial deposition, he
admitted striking Schroeder with his nightstick even though Schroeder was just

8

looking at him.
Petitioner attempted to cross-examine the sergeant on that issue. as a prior
bad act, but the trial judge would not allow it. (Trial tr 214, line 5 through 22 and tr
323, line 23 through tr 324, line 19)

The following exchange occurred with petitioner asking the questions:
Q Were you involved in a case called Schroeder versus
Nassau County Police Department?
MR LAI: Objection.
THE COURT: Overruled.
MR. LAI: May we approach?
THE COURT: Overruled. P1·oceed.
Repeat the question.
Q Were you involved in a lawsuit where you we1·e sued
for taking a kids eye out over DWI -MR. LAI: May we approach?
THE COURT: We're going to take a few minutes
in the back. Excuse us.
(Whereupon, all parties had a discussion
outside the presence of the jury.)
Let the record reflect we're in the back
hallway. The defendant is here, as is the Assistant
District Attorney, the court reporter, the office1·s and
the clerk. What is your good faith basis for that?
question?
MR. CLIFFORD: Judge, the suit said that it
was ample i·eason to try this guy for excessive force ,
but for the fact he was given immunity. That's my
grounds, your Honor.
THE COURT: Where is your documentation
MR. CLIFFORD: I have the case.
THE COURT: involving this officer?
officer was involved in the case?
MR. CLIFFORD: Yes. He's the guy who took the
eye out.
MR. LAI: I made this disclosure in front of
Judge O'Donnell. My understanding, the defendant needs
a good faith basis, and, in addition, my understanding
indicated when I disclosed that, made that disclosure to
the defendant, the defendant indicated the case was
9

dismissed as well.
THE COURT: The case against this officel' was
dismissed, so that means, Mr. Clifford, there was no
finding of liability against this officer; am I conect?
MR. CLIFFORD: No finding. He was given
immunity.
THE COURT: Answer the question. No finding
of liability against this officer, all right?
MR. CLIFFORD: Yes.
THE COURT: Is that correct?
MR. LAI: That's my understanding.
THE COURT: You 're not to pursue this line of
questioning and I'm going to sustain the objection. I'm
going to strike the question from the record and tell
the jurors to disregai·d. It has nothing to do with this
case and no basis in facts for it. Go in.
(Whereupon, all pal'ties returned to the
courtroom.)
I'm going to ask the members of the jury to
disregard the previous question that was asked. You're
not to consider that question. I understand there was
no answer to the question. And in any event, that has
no basis whatsoever in this case. You're not to assume
that anything is true by the question. You 're not to
assume anything is false by the question. It has no
bearing whatsoever in this case.
If you recall my instructions to you at the
beginning of the trial, it is a question and an answer
that comprises evidence. The mere fact that a question
is asked does not mean it's true. The mere fact a
question is asked does not mean it's false. You're to
ch·aw no particular inference whatsoever from my
sustaining the objection.
Mr. Clifford, proceed. (Cross-defense- P.O. Nielsen Trial tr 214-216)
Later at trial, just after the judge held that the right to bear arms applied
only to firearms in New York, the judge completed his jury instructions and asked
the parties if they had anything else. The transcript reads as follows:

323
13 One other thing, Mr. Lai and Mr. Clifford,
10

14 neither one of you are to instruct the ju1y on the law.
15 You're just to argue the facts and argue reasonable
16 inferences from those facts. Mr. Lai, you're n ot to
17 tell the jury what the law is. Mr. Clifford, you're not
18 to tell the jury what the law is. Mr. Lai, do you
19 understand?
20 MR LAI: Yes.
21 THE COURT: Mr. Clifford?
22 MR. CLIFFORD: Yes.
23 THE COURT: Other than that, anything else
24 needs to be done? We'll begin with closing arguments.
25 MR. CLIFFORD: Just that one I referenced
-.....
-·--.. ·....... ·............... ----- ·--------------·- .................................... ..
~----

KS
Proceedings
324
1 earlier when you give me the first strike after the

2 first question I asked as to whether in the case of
3 Schroeder versus the County of Nassau, I wasn't trying
4 to just bring out the fact that he was sued. In that
5 case, he made a judicial admission to the Court that he
6 did, in fact, hit the kid over a DWI collar and the kid
7 lost his eyesight. I have brought the case so you can
8 i·ead if you want. He said in anticipation of being
9 confronted, he was the initial aggressor and clubbed the
10 kid on the side of face.
11 THE COURT: If there was a finding against
12 that particulru.· witness, certainly you would be
13 justified. There was no finding of liability for
14 whateve1· reason against that pe1·son.
15 MR. CLIFFORD: I understand that, but it was,
16 in fact, a judicial admission that's admissible. If I
17 can get him to admit it on the stand.
18 THE COURT: Your exception is noted for the
19 i·ecord.
20 MR. CLIFFORD: Thank you. your Honor.
The appellate term held the issue wasn't preserved even though the court
granted petitioner an exception on the record.

On Question (3) was deliberately failing to send the jury back to
deliberate a violation of due process;
11

Petitioner believes the video tape of his apprehension of the sergeant shows
nothing inconsistent with his lawful arrest of him. It is not against the law in
New York to invite a felon to engage in the use of any kind of force and as a
military police and NYPD officer petitioner gave that same invitation now and
then to a would-be tu.ff guy. They all decline the invite.
In this case however, the trial judge ultimately determined that the
sergeant's infliction of damage to petitioner's car and petitioner's apprehension of
him were two different incidents even though they were only seconds apart.
Petitioner believes this was intentional bias on the judge's pa.r t and that it should
be considered in determining whether the incidents of bias amounted to a
violation of Constitutional due process.
The indications of bias started when the judge first told petitioner he could
bring in petitioner's car so that the jury could view the damage. Later, he decided
not to allow that and told petitioner he could bring in photos. Petitioner took
photos but the damage could not really be seen in the them because they were
scratches as opposed to cracks.
So, petitioner paid to have the window taken out and he brought it into
court but the judge still would not let the jury see it.
Add this to the judge not allowing the cross-examination of the sergeant
about his blinding the Schroeder plaintiff in one eye and one might think the
judge was leaning towards the prosecution.
But the judge went further. The jury came back with a repugnant verdict,
12

i.e., guilty of menacing but not guilty of crin1inal possession of a weapon (or
endangering the welfare of a child) and the judge dismissed the jury despite his
statutory duty to send it back tmder section 2 of New York Criminal Procedure
Law 310.50 which states:
2. If the jury renders a venlict which in fom1 is not in accordance with

the court's instructions or which is otherwise legally defective , the
court must explain the defect or error and must direct the jury to
reconsider such verdict, to resume its deliberation for such purpose,
and to render a proper verdict.
This was not an oversite because, when petitioner was sentenced, the judge
told petitioner on the record that he was waiting for petitioner to say something.
The transcript reads as follows:
Would you like to be heard, Mr. Clifford?
15 MR. CLIFFORD: Yes , your Honor.
16 I thought I'd b1ing it to the Court's
17 attention that this was a repugnant verdict. I believe
18 it is in the transcripts, I brought copies of the
19 transcripts of the trial.
20 THE COURT: You have to make a motion to set
21 a verdict aside as i•epugnant when the verdict comes
22 back. Once the jury is discharged, that motion may not
23 be made. Are you telling me that you made a motion at
24 that time, because I -25 MR. CLIFFORD: I brought it to your attention
-------------------PROCEEDINGS---------- - - - ---------- ----- -4 --1 that it was a repugnant verdict and you said that it
2 would have to be decided by a higher court.
3 THE COURT: Do you have the minutes?
4 MR. CLIFFORD: Yes.
5 THE COURT: I would like to see those minutes.
6 MR. CLIFFORD: Yes, your Honor.
7 THE COURT: Please hand that to the officer.
8 MR. CLIFFORD: It may take me some time to
9 find it.
10 THE COURT: That is not my recollection
11 because I was specifically waiting to hear that and I do
13

12 now believe that I heai·d that.
13 Do you have the minutes of the sentencing -14 the verdict right there?
15 MR. CLIFFORD: Yes.
16 THE COURT: Please hand it the officer and let
17 me take a look at it. I want. specifically, when the
18 jury came in with the verdict, the one that
19 specifically is what I want. You have it open, aren't
20 you reading it?
21 MR. CLIFFORD: I have a copy fo1· your Honor.
22 It looks like 9.
23 THE COURT: Thank you, let me take a quick
24 perusal. On page 9, I asked you are you moving me
25 are you asking me to set aside the verdict because there
1 is insufficient evidence. Yes, your Honor, based on my
2 motion for a mistrial.
3 Then the Court: You don't want a mistrial
4 now, you beat two out of the three counts. You said I
5 understand. You said it was insufficient evidence, that
6 is denied, but you did not make a motion for a repugnant
7 verdict. You must specifically make a motion for a
8 repugnant verdict in that the conviction on one ground
9 was repugnan t to the acquittal on the other ground. So
10 I've looked it over, you did not make it while the jury
11 was here. The jury had been discharged and then , and
12 only then, you filed a motion. All right. So. that
13 matter is settled.

But the matter was not settled because the trial judge discharged the jury
before petitioner ever had a chance to make the motion to set aside the verdict.
Moreover, it was not the petitioner's job to make the motion it was the
judge's job to send it back.
Further, the transcript shows the judge dismissed the jury before giving
petitioner a chance to say anything at all. So, the question of whether or not there
was a waiver should not be involved he1·e. The transcript reads as follows:
389 Proceedings
14

1 MR. LAI: Thank you.
2 THE COURT CLERK: Thank you. Some of your
3 colleagues are little derelict in their retrieval.
4 THE COURT: They have the verdict sheet.
5 THE COURT OFFICER: Judge. do you want the
6 jurors brought in?
7 THE COURT: Yes.
8 THE COURT OFFICER: Jurors entering.
9 (The jury entered the courtroom.)
10 THE COURT: Do both sides acknowledge all
11 jurors are present, including the alternates?
12 MR. CLIFFORD: Yes.
13 MR. LAJ: Yes, your Honor.
14 THE COURT: Members of the jury. I have a note
15 h e1·e which has been marked into evidence as Court
16 Exhibit 8. It says, we have reached a verdict, signed
17 Lizabeth Due, October 22nd, 2018, 2:40 p.m. Is this the
18 note you sent in, Ms. Due?
19 MADAME FOREPERSON: Yes , your Honor.
20 THE COURT: Okay.
21 THE COURT CLERK: Will the foreperson stand,
22 please? In the case of the People of the State of New
23 York v. John Clifford, has the jury reached a verdict?
24 MADAME FOREPERSON: Yes.
25 THE COURT CLERK: As to Count 1 in this case,
KS
Proceedings
390
1 a violation of Penal Law 120. 14 Subdivision 1 of the
2 Penal Law, what is your verdict?
3 THE WITNESS: Guilty.
4 THE COURT CLERK: As to Count 2, a violation
5of265.01Subdivision2 of the Penal Law, what is your
6 verdict?
7 THE WITNESS: Not guilty.
8 THE COURT CLERK: As to Count 3, a violation
9 of Section 260. 10 Subdivision 1 of the Penal Law, what
10 is your verdict?
11 THE WITNESS: Not guilty.
12 THE COURT CLERK: Thank you.
13 THE COURT: All right. Madame Foreperson , is
14 that your verdict?
15 MADAME FOREPERSON: Yes.
16 Juror Number 2, is that your
15

1 7 verdict?

18 JUROR NUMBER 2: Yes
19 THE COURT: Juror Number 3 is that your
20 verdict?
21 JUROR NUMBER 3: Yes ..
22 THE COURT: Juror Number 4, is that your
23 verdict?
24 JUROR NUMBER 4: Yes.
25 THE COURT: Juror Number 5, is that your

KS
Proceedings
391
1 verdict?
2 JUROR NUMBER 5: Yes.
3 THE COURT: Juror Number 6: Is that your
4 verdict?
5 THE WITNESS: Yes.
6 THE COURT: The jury has been polled and that
7 is the verdict of all jurors.
8 Members of the jury, I want to thank you for
9 the time and attention you put into this case. It's
10 clear to me from your verdict that you listened
11 carefully and evaluated all the testimony and evidence.
12 At this point, you may discuss the case. You can talk
13 to anybody about it. You can talk to the attorneys.
14 You can talk to Mi·. Clifford. You can talk to anyone
15 you like about the case from here on in. Other than
16 that, I thank you very much for your time and attention.
17 Have a gi·eat week and a great holiday season and you may
18 all go. If you want to stick around and speak to either
20 THE COURT CLERK: The Court will be back in a
21 few minutes. He has a little housekeeping so you know
22 what to do as to your service. He'll be a couple of
23 minutes.
24 (Whereupon, the jury left the courtroom.)
25 THE COL1ET: Okay, back on the record. Is
KS

Proceedings
392
1 there a motion from the defendant?

2 MR. CLIFFORD: I'm not sure what I'm convicted
3 of.

4 THE COURT: You were convicted of menacing.
5 You were found not guilty on crinlinal possession of a
16

6 weapon , and not guilty on endangering the welfare of a
7 child.
8 Are you moving me to set aside the verdict
9 because there is insufficient evidence?
10 MR. CLIFFORD: Yes, your Honor, based on my
11 motion for a mistrial.
12 THE COURT: You don't want a mistrial now, you
13 beat two out of the three counts.
14 MR. CLIFFORD: I understand. If you read the
15 case law that I presented to you, I think you told me
16 the other day that the right to bear arms only applied
17 to firearms. I gave you the case it's Supreme Court of
18 the United States. It says applies to anything that can
19 be used as a weapon.
20 THE COURT: Rather than argue that, that has
21 been rendered moot because you were acquitted on that.
22 MR. CLIFFORD: I don't see how you can menace
23 somebody if you did it legally.
24 THE COURT: That is question that an appellate
25 court might wish to undertake.

There a1·e New York cases that hold a defendant has waived any objection to
a i·epugnant verdict if he doesn't object but that implies the defendant had an
opportunity to make the objection in the first instance. In this case the transcripts
cleai·ly show the trial judge didn't give petitioner that opportunity and that it was
not an accident because at sentencing he told petitioner he was waiting for
petitioner to make the motion.

On Question (4) Was the appellate court's failure to rule a violation
of due process?
Prior to and duting trial petitioner made written motions for dismissal on
the same grounds as stated above.
Petitione1· raised them again on appeal. They were specifically:

17

Q-1 · WHETHER THE TRIAL COURTS SHOULD HAVE
DISMISSED PRIOR TO TRIAL
Q-2- WHETHER THE TRIAL COURT SHOULD HAVE DISMISSED
AFTER THE PEOPLES OPENING STATEMENT
Q3- WHETHER THE TRIAL COURT SHOULD HAVE
DISMISSED UPON DEFENDANT-APPELLANT'S MOTION FOR A
TRIAL ORDER OF DISMISSAL
Q-4 WHETHER THE TRIAL COURT ABUSED ITS DISCRETION IN
NOT ALLOWING DEFENDANT-APPELLANT TO CROSSEXAMINE THE SERGEANT ABOUT A PRIOR BAD ACT
Q-5 WHETHER THE TRIAL COURT COMMITED
REVERSIBLE ERROR IN NOT ALLOWING THE JURY TO VIEW
THE DAMAGE DONE TO DEFENDANT- APPELLANT'S CAR OR
AT LEAST WINDOW OR THE ESTIMATES
Q-6 WHETHER THE TRIAL COURT CO:Ml\1I'ITED REVERSIBLE
ERROR IN NOT CHARGING ON THE RIGHT TO USE PHYSICAL
FORCE TO MAKE AN ARREST FOR CRIMINAL MISCHIEF AND
ANY OTHER CRIME AS WELL AS THE .RIGHT TO BEAR ARMS
Q-7 WHETHER THE TRIAL COURT COMMI'ITED REVERSIBLE
ERROR IN NOT SENDING THE JURY BACK TO DELIBERATE
The appellate court addressed only the justification defense and ruled petitioner was not
entitled to it even though the sergeant admitted in his supporting affidavit and on the witness stand
that he had struck petitioner's car with his weighted bag.
Appellate courts should be held to give reasons why they think the issues were not preserved
if for no other reason than to infom1 the legal profession why. Particularly where, as here, wrinen
motions were made.

18

CONCLUSION

The Petition for a writ of certio1·ari should be granted.
Respectfully submitted,

ohn A. Clifford, orney, Pro Se
370 W. Broadway, Apt. 5W
Long Beach, NY 11561
(516) 477-4684
cliffordjohna@'aol.com
Counsel of Record for Petitioner

Dated: July 21, 2021

19

APPENDIX A. APPELLATE TERM DECISION OCTOBER 29, 2020)
APPELLATE TERM OF THE SUPREME COURT
OF THE STATE OF NEW YORK FOR THE 9TH & IOTH
JUDICIAL DISTRICTS
Submitted · October l , 2020 Term
THOMAS A. ADAMS, P.J.
JERRY GARGUILO
ELIZABETH H. EMERSON,
JJ.
····· ·--···········-------------------·················- -------- -- · --X

DECISION & ORDER
The People of the State of New York,
Respondent, v John A. Clifford, Appellant.
Appellate Term Docket No.
2019-154 NCR
Lower Court# 2017NA028735
------------·--------------------------------------------------------x

John A. Clifford, appellant prose.
Nassau County District Attorney (Jason R. Richru·ds and
Michael K. Degree of counsel), for respondent.
Appeal from a judgment of the District Court of Nassau County,
First District (Joseph B. Girardi, J .), rendered January 3, 2019. The
judgment convicted defendant, upon a jury verdict, of menacing in the
second degree, and imposed sentence.
ORDERED that the judgment of conviction is affirmed.
Defendant was convicted. following a jury trial, of menacing in the second
degree (Penal Law
§ 120.14 [1]). On appeal, defendant ai·gues, among other things, that
the District Court erred in denying his general request for a
"justification cha1·ge" and that the verdict is repugnant, as he was
acquitted of criminal possession of a weapon in the fourth degree
(Penal Law § 265.01 [2]).
Defendant's contention on appeal that he was entitled to a
justification chai·ge under Penal Law §§ 35.25 and 35.15 (2) as to the
menacing count of which he was convicted is unpreserved for appellate
review (see CPL 470.05 [2]). In any event, viewing the evidence in a
light most favorable to defendant, there was no reasonable view of the

evidence supporting the elements of a justification defense. Defendant
testified that, while driving his vehicle in Long Beach, as he was
speeding up to drive around a car that had turned in front of him and
was about to hit his vehicle, he saw the complainant and his daughter
crossing the street just ahead. The complainant pushed his daughter
October 29, 2020
Page: 1
PEOPLE v CLIFFORD, JOHN A.
back as defendant swerved out of the way, and the complainant swung
the diaper bag he was carrying like a baseball bat and hit defendant's
vehicle's rear window with it. Defendant traveled about 50 feet down
the road and stopped his vehicle. Defendant took a quick look. saw
damage to his window, g1.'abbed a sheathed hatchet from his tools,
exit.ed his vehicle, took seven steps toward the complainant, held up
the still-sheathed hatchet, and said, ''Come on. If you want a piece of
me, come get it." Under the circumstances presented, no reasonable
view of the evidence could support the conclusion that defendant
committed the act of menacing in the second degree, but did so under
circumstances warranting a justification charge under eithe1· Penal
Law§ 35.15 (2) or§ 35.25 (see People v Richardson, 115 AD3d 617, 618
[2014); People v Dahley, 66 Misc 3d 142[A], 2020NY Slip Op 50160[U]
[App Term, 2d Dept, 9th & 10th Jud Dists 2020)).
Defendant's contention that the verdict convicting him of
menacing in the second degree (Penal Law§ 120.14 [l]) and acquitting
him of criminal possession of a weapon in the fourth degree (Penal Law
§ 265 .01 [2]) is repugnant is not preserved for appellate review (see
People v Ransom, 170AD3d 1199, 1200[2019] ;PeoplevEdwards , 129
AD3d 1499 [2015]), and we decline to review that contention as
a matter of discretion in the interest of justice (see CPL 4 70.15 [6] [a]).
Defendant's i·emaining contentions are without merit. Accordingly, the judgment of
conviction is affirmed. ADAMS, P.J ., GARGUILO and EMERSON, JJ., concur.
ENTER:

APPENDIX B (ORDER DENYING LEAVE FEBRUARY 23, 2021)
STATE OF NEW YORK
COURT OF APPEALS
BEFORE: LESLIE E. STEIN, Associate Judge
THE PEOPLE OF THE STATE OF NEW YORK,
Respondent,
-against-

ORDER DENYING LEAVE

JOHN A CLIFFORD,
Appellant.
Appellant having applied for leave to appeal to this Court
pursuant to Criminal Procedure Law§ 460.20 from an order in the
above-captioned case;*
UPON the pape1·s filed
and due deliberation, it is
ORDERED that the
application is denied.
at Albany, New York

Associate Judge
*Description of Order: Order of the Appellate Term for the 9th and
10th Judicial Districts. dated October 29, 2020, affirming a
judgment of the First District Court of Nassau County, rendered
January 3, 2019.

APPENDIX C. (DECISION OF JUDGE COREY E KLEIN MAY 24, 2017)
CITY COURT OF THE CITY OF LONG BEACH
COUNTY OF NASSAU: STATE OF NEW YORK
---------------------------------------------------------------------------------x
THE PEOPLE OF THE STATE OF NEW YORK,
-againstDOCKET NO.
CR5481 -2016
JOHN A CLIFFORD,
Defendant.
-------------------------------------------------------------------------------------------------:x:
Papers Considered:
Notice of Motion .... ......................... .. .. ............ .................................. .. ................... 1
People's Affirmation in Opposition to Defendant's Omnibus Motion ................... 2
Affidavit in Reply with Request for Additional Relief.. ........................ .... ............ 3

DECISION
The defendant has been charged with Menacing in the Second Degi·ee
(Penal Law §120.14[1]) , Criminal Possession of a Weapon in the Fourth Degree
(Penal Law §265.01[2]), and Endangering the Welfare of a Child (Penal Law
§260.10[1]), in connection with his alleged activities on or about March 29, 2016
at approximately 4:50pm, at Center Street and West Chester Street in the Cit.y of
Long Beach, New York. The defendant's omnibus motion is determined as provided
herein.
Part I of the defendant's motion, entitled "DEMAND FOR DISCOVERY", does
not seek any relief from the court. but rather directs its request to the
prosecution. Part II of the defendant's motion, entitled "MOTION FOR
DISCOVERY". references CPL §240.40(l)(c) and enumerates a number of
discovery items. Even if this "motion for discovery" could be construed as an
application for an order compelling discovery, CPL 240 contemplates that the

defendant will make a demand for discovery upon the prosecution prior to the
submission of a motion seeking court-ordered compliance with same. Here, the
defendant has failed to submit such allegations or proof. In any event, annexed
to thefr opposition to the defendant's motion, the People indicate that they have
provided the defendant with all materials subject to discovery pursuant to CPL
§240 in the Voluntary Disclosure Form on November 2, 2016. The People also

provide a copy of a written statement of Marie Maraglio. Finally, the People
contend that the remainder of the defendant's discovery motion is overb1·oad,
lacking in legal authority or factual basis, or is otherwise premature. Although
the defendant has submitted a reply, he has not indicated therein that he is in
any way dissatisfied with such production. Accordingly, this branch of the
defendant's motion is denied.
The defendant's request for suppression is granted to the extent that a pretrial Huntle,·!Duna.way hearing will be conducted. The court will afford the
defendant ample opportunity. with due diligence, toobtain thetranscriptofthepretrial hearing sufficiently in advance of trial (see People v S a.nders, 31 NY2d 463
(1973]; People ti Peacoch, 31 NY2d 907 (1972]).

To the extent thatthe defendant seeks suppression of identification evidence,
same is denied, as the People acknowledge th .at there wer e no identification
procedures conducted in connection with the instant matter.
Although the defendant seeks certain relief in his reply affidavit, such
applications are improperly raised for the first time on reply, and as such, they

are denied.
The defendant's attempt to seek leave to make fu1·ther motions is denied
as premature (CPL 255.20[2] , [3]) .
The foregoing constitutes the decision and order of the court.
So, Ordered this 241b day of May 2017

COREY E. KLEIN CITY COURT JUDGE

APPENDIX D. (DECISION & ORDER OF ASCJ HELENE F GUGERTY

ENTERED NOBEMBER 13, 2017)
SUPRE:ME COURT OF THE STATE OF NEW YORK
COUNTY OF NASSAU
-----------------------------------------------------------------------------:}{
CRIM. TERM PART 45
Dkt. # CR 10863-2016
DECISION & ORDER
Present: Honornble Helene F. Gugerty, A.S.C.J.
THE PEOPLE OF THE STATE OF NEW YORK
PLAINTIFF
-AgainstJOHN CLIFFORD.

Madeline Singas Acting,
D.A. Nassau County
By: Daniel Grusenmeyer Jr.,
Esq. Assistant District
Attorney
Pro Se
Defendant John
A. Clifford
370 W. Broadway, Ste
5W Long Beach, NY
111561

DEFENDANT
------------------------------------------·----------------------------------}{
The following papers were read on this motion: Papers Numbered
Notice of Motion, Affidavits (Affirmations), Exhibits Annexed .. ..... I
Answering Affidavit District Attorney .... ............................. ............. 2
Reply .. .......................... ................ ........................... .................... .......... 3
Defendant, John Clifford, moves by notice of motion to transfer his
case to County Court for p1·esentation to the Grand Jury, or
alternatively, to transfe1· his case

to

Dis trict Court for trial pursuant to

C.P.L. §170.15 and C.P.L. 170.250}on the grounds that 1) the
prosecutor in Long Beach is being unethical in the treatme nt of the
case; 2) the defendant has been subject to unwanted adverse publicity
3) the case presents a new and difficult question of law for the jury and

4) the defendant has a property interest at stake. The People have
opposed the defendant's motion in all respects.

Based upon defendant's motion and the People's opposition. and the
applicable law . defendant's motion to transfer his case from Long Beach City
Court to Nassau County District Court is gi·anted and his motion to transfer his
case to County Court for presentation to the Grand Jury is denied.
The authority for removal of an action from the Long Beach City Court to
the Nassau County District Court primarily stems from two sources:
Constitution of the State of New York. ru·ticle VI§ 19 and Criminal Procedure
Law§ po.15(3). A..rticle YI, § 19 (a) of the

~ew

York Constitution authorizes a

supreme court to transfer any proceeding (other than those overwhich it has
exclusive jurisdiction which does not depend upon th e monetary amount sought)
"to any other court havin g jurisdiction of the s ubj ect matter within the judicial
department provided that s uch other court has jurisdiction over the classes of
persons named as parties." Article VI, § 19 (b) of the New York Constitution
authorizes a county court to transfer any proceeding (except a criminal
proceeding involvi ng a felony prosecuted by indictment or an action or
proceeding required to be dealt with in surrogate's court or family court)"to any
court. other than the s upreme court. having jurisdiction of the subject matter
within the county provided that s uch other court has j urisdictio n over the
classes of p er sons named as parties. Thus, the New York State Constitution
grants the Nassau County Supreme Court and the Nassau County Court the

discretional'y authority to transfer actions from the Long Beach City Court to
the Nassau County District Court which are co urts of concurrent jurisdiction .
In the case at bar. the Court has the discretion to remove the action from
Long Beach Cit.y Court to the Nassau County District Court. In 1·eviewing the
papers, th e Court finds that there has been a great deal of publicity concerning this
case. In addition. Long Beach City Court Judge Klein states in his decision , on
defendant's motion for an adjournment to seek removal to a Superior Court." the
Court must not e that. it has some concerns regarding this matter proceeding in this
Court. including, but not limited to, the acrimony between the defendan t and the
Assistant District Attorney, the fact that the complainant is a Long Beach Police
Sergeant. and the generally politically charged nature of this action." As stated in

People v Graydon, 59 l\llisc. 2d 330, 331, "there must be an appearance that justice is
being properly dispensed; both defendant and the public must feel that defendant is
getting a fair , unbiased, unprejudiced trial; and it is to the interest of the People of
the State that no defendant be improperly conYicted or acquitted because a Judge or
jury unintentionally bends backward against one or the other." In the interest of both
the defendant and the People of the State, the motion to transfer this case from the
Long Beach City Court to the Nassau District Comt is granted.
Accordingly , it is
ORDERED. that thP defendant's motion to transfer his case to County Court fo1·
presentation to the Grand Jury is DENIED, and it is further

ORDERED. that defendant's motion

t1<1n~fel' hi~

case from Long Beach Ci1,r

Court to N assau County District Court is GRANTED.
The foregoing constitutes the decision a nd order of this Com't. All applications
n ot specifically adc:l ressed h erein aredenied.
Date: Nnvemher 8, 20 !1
Minco!!, NY

!~Li
Hon. Helene F. Gugerty
A.S.C.J.

APPENDIX E. (DECISION OF NASSAU COUNTY DISTRICT COURT
JUDGE TRICIA M FERRELL JUNE 15, 2018)

DISTRICT COURT OF NASSAU COUNTY
FIRST DISTRICT CRIMINAL PART 1
THE PEOPLE OF THE STATE OF NEW YORK,
Plaintiff,
-against-

DOCRET NO.
CR-028735-17NA
Present:
Hon. TRICIA M. FERRELL

JOHN A. CLIFFORD
Defendant(s)

The following named papers numbered 1 to 3
Submitted on this motion on May 14, 2018
papers numbered
Notice of Motion
Affirmation in Opposition
Reply Affidavits

1
2
3

The defendant is charged with three violations of the Penal Law
instruments. He asserts that the prosecution has failed to bring this case
to trial within ninety days. The defendant argues that he immediately
notified the police department and the prosecution that be was subjected
to a false arrest on his arraignment date: March 30, 2016; he supplied the
prosecution with information related to a witness on September 29, 2016,
however the defendant believes they didn't speak to her until the
following February; the prosecution failed to announce readiness for the
hearing scheduled earlier this year and the defendant also claims that
the judge
who presided oveT the hearing failed t.o follow the law . He also st.ates
that the transcript of the 9-1-1 call still hasn't been provided to the
defendant and he contends this failure to supply such information is also
a basis to dismiss the case.
The defendant filed a subsequent motion to dismiss the accusatory
instruments. In these papers, the defendant argues that his
constitutional rights permit him to carry and possess weapons in case of
confrontation and to subject him to criminal prosecution because he
exercised his constitutional rights violates the constitution. The

defendant also argues that the factual allegations fail to set forth a
reasonable belief that a crime was commit.t.ed; the defendant believes he
and the prosecution agree on the facts of this case. justifying the
dismissal of this
THE PEOPLE OF THE STATE OFNEWYORK v. CLIFFORD DOCI<ET NO.
CR-028735-1 7NA
case. Another argument made by the defendant is that the hatchet he
possessed wasn't a weapon and he was using the object lawfully to terminate
the commission of criminal mischief committed against his property.
The prosecution opposes the defendant's motion for dismissal of the
charges. They assert that ninety days to prosecute the case has not elapsed
because a significant portion of the adjournments were based upon requests
made by the defendant and motion practice, in addition to the defendant's
absence from court. They concede that the suppression hearing didn't
proceed on two occasions because the prosecution wasn't ready however
they calculate only ten days charged against them versus ninety days as
asserted by the defendant. The prosecution also opposes a continuation of
the hearing on the g1:ounds that hearsay t estimony was properly considered
and not a grounds for dismissal.
For efficiency purposes, the court will address all of the
defendant's contentions in this sole decision.
The defendant's application for a clismissal of the case pursuant to
Criminal Procedure Law Section 30.30 is denied. Pursuan t to Section 30.30, a
motion made for dismissal on speedy trial grounds must be granted where the
people are not ready fo1· trial within ninety days of the commencement of a
criminal action wherein a defendant is accused of one or more offenses, at
least one of which is a misdemeanor punishable by a sentence of
imprisonment of more than three months and none of which is a felony.
According to Criminal Procedure Law Section 30.30(4). in computing
the time within which the people must be ready for trial pursuant to
subdivision one and two (of Section 30. 30) the following pertinent time
periods are excluded:
(a) a reasonable period of delay resulting from other proceedings
concerning the defendant .. .including but not limited to: a

demand to produce; a request for a bill of particulars; pre-trial
motions ...
THE PEOPLE OF THE STATE OFNEWYORK v. CLIFFORD
DOCKET NO. CR-028735-17NA
(b) the period of delay resulting from a continuance gi·anted by the court

at the request of or with the consent of the defendant or his counsel. ..
(c)(i) the period of delay resulting from the absence
defendant.

01·

a vailability of the

The defendant's contention is that the t.ime period from September 29,
2016 through February 22, 2017 should be chargeable to the prosecution,
representing the time period the defendant supplied the prosecutor with
identifying information regarding a witness and the amount of time that
passed until the witness was contacted by said prosecutor. Nowhere in the
Criminal Procedure Law is a prosecutOl' required to interview every witness
involved in a case; nor is the time chargeable to the prosecution for failure to
interview any witnesses. Criminal Procedure Law Section 30. 30. Furthermore,
the recorcl reveals the following:
On September 21, 2016, the defendant requested the case be
adjourned for voluntary disclosure discovery. Criminal Procedure Law
Section 30. 30(4)(a).
On November 2. 2016. the defendant consented to an adjournment for
additional discovery to be provided by the prosecution (surveillance
videos) . Criminal Procedure Law Section 30.30(4)(a) and (b).
On December 2, 2016, the defendant consented to an adjournment to
review the previously mentioned surveillance videos and to discuss the
case further with the prosecutor. Criminal Procedure Law Section
30.30(4)(b).
On January 20. 2017. the defendant didn't appear in court. Criminal
Procedure Law Section 30.30(4)(c)(i).
On February 3, 2017, the case was adjourned until March 3. 2017. for
the defendant to file motions. Criminal Procedure Law Section 30.30
(4) (a) .

THE PEOPLE OFTHE STATE OFNEWYORK v. CLIFFORD DOCKET NO.
CR-028735-17:.JA
On March 3. 2017, the prosecution requested time to r espond to the
defendant's motion and the court adjourned the case until April 7.
2017. Criminal Procedure Law Section 30.30 (4)(a).
Based upon the foregoing, the time periods specified by the defendant
are excluded from the computation of time within which the people must be
ready for trial. Criminal Procedure Law Section 30.30(4)
There were two occasions the prosecution delayed the court and failed
to provide a statutory basis for the court to exclude the time from its
computation:
On January 24, 2018. the prosecutor was not ready to proceed with the
he aring. The court granted the prosecution's request to adjourn the
case until February 27th, which was the fo·st available date for t he
officer to appear since h e was in training. A Certificate of Readiness
was filed on February 1, 2018, however based upon the prosecution's
representations to the court that t he officer w asn't available until the

following month, its unknown how eight days later t heir readiness
could be announced.
Therefore, the entire period of time from January 241h until
February 27th 2018, being thirty-four (34) days, is chargeable to the
prosecution .
On February 27, 2018. t he prosecution was again not ready to proceed
and the case was adjourned at their request until March l , 2018 for the
hearing. Therefor e, the additional two (2) days are also chargeable to the
prosecution .
Therefore. the prosecution has fifty--four (54) days remaining to
commence a trial of the charges in this case.
In addition to the defendant's motion for a dismissal on speedy trial
grounds, the defendant also requests a continuation of the pre-tr ail hearing.
He contends that the assigned judge ''refused to sit" a nd the judge who
presided over the hea1·ing refused to "follow case law" because h e didn 't
require the prosecutor to produce the arresting officer in this case. While the
minutes supplied don't include the March 1, 2018 conference of the case, the
defendant was made aware that the j udge was unable to preside over the

hearing and due to the
THE PEOPLE OF THE STATE OF NEW YORK v. CLIFFORD
DOCKET NO. CR-028735-l 7NA
party's readiness, immediate arrangements were made by the
administration office of the court so another judge would conduct the
hearing, preventing the parties from being inconvenienced. No specific
request was made as to who would hear the case, nor was there a refusal to
hear the case. These accusations, along with those made against the
hearing judge by the defendant a1·e completely unfounded and without any
factual or legal merit.
The defendant has also made a request for a continuation of the
hearing based upon his previous contentions. He argues that the cou rt erred
in not requiring the prosecution to produce the arresting officer or any notes
the officer may possess relevant to this case. As previously mentioned, the
law doesn't require t.he prosecution to produce particular witnesses in any
case; moreover. this witness also could have been called by the defendant.
Additionally, if the defendant sought to re-argue the merits of the hearing, he
would have to set forth a s ufficient legal basis for the court to conduct such a
review.
Pursuant to CPLR Section 2221(d), a motion to reargue shall "be based
upon matters of fact or law allegedly overlooked or misapprehended by t he
court in determining the prior motion, but shall not include any matters of
fact not offered on the prior motion." In other words, to be successful on a
motion to reargue, the movant must show that the court overlooked or
misapprehended the facts or the law, or for some reason mistakenly anived
at its earlier decision (see R enna u Gullo, 19 AD3d 472 (2d Dept 2005];
S wenning u Wankel, 140 AD2d 428 [2d Dept 1988]; Andrea. u. E.I. Du Pont De
Nemonrs & Co., 289 AD2d 1039).
Here, the defendant fails to show that the court overlooked or
misapprehended the facts or the law . 01· for some reason mistakenly arrived
at its earlier decision, therefore his application for a continuance of the
hearing or revisiting the hearing court's decision is denied. The hearing will
also not be re-opened upon production of a non-existent 9- 1-1 transcript or
tape.
The defendant also moved to dismiss the charges based upon his view of
the facts that the complainant was the aggressor. The defendant's version of
events differs from the statements provided to the police by the complainant
and the witness. According to the complainant's statement, "the other vehicle
began speeding towards me and my 6-year-old daughter"; t he driver "was

looking behind him as he sped towards me." The witness referred to by the
defendant. also

.5.
THE PEOPLE OF THE STATE OF NEW YORK v.
CLIFFORD DOCKET NO. CR-028735-l 7NA
stated that as the defendant drove, he "came very close to hitting the man
with his child". These allegations fail to support the defendant's position that
the complainant was the initial aggressor; they speak to issues of fact
regarding intent and justification, which are properly reserved for the finder
of fact at trial.
Whether the hatchet is a dangerous weapon is also a factual issue
properly reserved for the finder of fact at trial. These matters and others
can be fully litigated at trial to allow both parties a full and fair
opportunity to have a final resolution to this 2016 case.
All other applications are denied.
Herein lies the decision and order of the court.
So. Ordered:
DISTRICT COURT JUDGE
Dated: June 15, 2018
cc: Honorable Madeline Singas, District Attorney John
A. Clifford, pro se
TMF :blm

APPENDIX F. (DECISION OF NASSAU COUNTY DISTRICT COURT
JUDGE COLIN F. O'DONNELL SEPTEMBER 19, 2018)

DISTRICT COURT OF NASSAU COUNTY
FIRST DISTRICT CRIMINAL TERM
x

THE PEOPLE OF THE STATE OF NEW YORK
Plain tiffs,
against

DOCI{ET NO.
CR-028735· l 7NA
P l'ese nt :
Hon. Colin F. O'Donnell

JOHN A CLIFFORD.
Defendant(s)

--------------------- - ------------------------------------------------ - ---------~

The following named papers numbered 1 to 2
submitted on this Motion to Reargue & Cross Motion to Dismiss on
August 13, 2018
K otice of motion to reargue

K otice of cross-motion to dismiss

The People move for an order pursuant to CPLR 222l(cl} . granting
reargument of a written decision rendered by Hon. Tricia :\1. Ferrell on June
15. 2018. charging them with (3-1) days fo1· the period of time from January
24. 2018 to February 27 20 18 for their failure to proceed with a hearing on
January 21 2018. as scheduled
Defendant opposes. and cross-moves under CPLR 2221 (d} . for an order
granting leave to reargue that branch of the court's June 15. 2018 decision
denying defendant's underlying motion to dismiss based upon his assertion
that the complainant was the initial aggressor. The motions are determined
as follows .
Purs uant to CPLR 2221 (cl)(2) . a motion to reargue ··shall be based upon
matters of fact or law allegedly overlooked or misapprehended by the court in
determining the prior motion. but shall not include any matters of fact not
offered on the prior motion." Thus. to prevail on such a motion a movant must
show that the court "ove rlooked or misapprehended the relevant facts or
misapplied any controlling princ1ple oflaw" (see l\llcGill u Gold111 r111 . 261 AD2d
593 [2d Dept 1999]: see also Collins l ' Stone, 8 AD3d :321 [2d Dept 2004])

Review of the papers at bar, specifically including but not limited to
the transcript of the January 24 2018 proceedings. indicates that the court
seemingly charged the People (3-1) days based upon the understanding that
the arresting officer was in training on the date of the hearing. January 24.
2018, and would not be available until February 27 . 2018. to which said
hearing was then adjourned. Now. in support of their motion to reargue. the
People clarify that they had given the court "bad dal es ." or dates that the
arresting officer would not be available, namely February 20. 2018 to
February
26. 2018 The People further explain that they could have declared readiness
any time prior to February 20. 2018, as the arresting officer would have been
available. which they did on February 1. 2018. by filing a Certificate of
Readiness with the court
Thus. in light of the foregoing. and in these part.icular circumstances.
the People's motion for reargument is granted, and upon reru:gument. this
court amends the (34) days charged to the People in the June 15. 2018
decision to eight (8) days. for the period of time from January 24. 2018 to
February 1. 2018. This court further amends that part of the June 15. 2018
decision stating that the People have (54) days remaining to commence a
trial of the charges in this case. to (80) clays.
Turning now to defendant's cross motion this court finds that no
relevant facts or controlling principles of law were overlooked.
misapprehended. or misapplied in the determination of defendant's underlying
motion to dismiss. Accordingly defendant's motion to reargue is denied.
So, Ordered .

-

l\l UiL.~.
( _-.
~- --.~r'\lr">Tr-'11,...."T'"

'°' '"°'' ,_._ .. · - - -

DISTRICT COURT JUDGE
Dated: September 19, 2018
cc: Madeline Sin gas. District Attorn ey John A. Clifford. Defendant prose
DISTRICT COURT JUDGE
CFO/mp

APPENDIX G. (ORDER ON APPLICATION TO ENLARGE TIME
FOR PROSECUTION TO RESPOND AUGUST 21, 2019)

APPELLATE TERM OF THE SUPREME COURT
OF THE STATE OF NEW YORK FOR THE 9™ & 10'°'
JUDICIAL DISTRICTS
........................ ................. ...............................................x

The People of the State of New York,
Respondent,
v

ORDER ON
APPLICATION
Appellate Term
Docket No. 2019-00154
Lower Cou rt Index#
2017NA028735

John A. Clifford,
Appellant.

---------·--------------·----·-·------------·--------·-····----------···-X
Application by the respondent pursuant to 22 NYCRR
732.8 to enlarge the time to serve and file a respondent's brief
on an appeal from a judgment of conviction of the District
Court of Nassau County, First District, rendered January 3,
2019.
ORDERED that the application is granted and the
respondent's brief shall be served and filed within 30 days
from the date of this order; and it is further ,

ORDERED that the appellant, if they be so advised, may
serve and file a reply brief within 7 days from the service of the
respondent's brief.
ENTER:

AUG212019

Paul Kenny Chief
Clerk

No.

IN THE
SUPREME COURT OF THE UNITED STATES

JOHN A. CLIFFORD,

Petitioner,
vs.

PEOPLE OF THE STATE OF NEW YORK,

Respondent.

PROOF OF SERVICE
I, JOHN A CLIFFORD do swear or decla1·e that on this date July 21 , 2021, as
required by Supreme Court Rule 29 I have served the enclosed
PETITION FORA WRIT OF CERTIORARI on each party to t he above
proceeding or that party's counsel, and on every other person required to be
served , by depositing an envelope containing the above documents in the
United States mail properly addressed to each of them and with first-class
postage prepaid , or by delivery to a third-party commercialcarrierfor
delivery within 3calendar days.
The names and addresses of those served are as follows:
Nassau County District Attorney - Appeals
Attn: Jason R. Richards or Supervisor
262 Old Country Rd.,
Mineola, NY 11501-8401
(516) 571-3660
I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 21, 2021

